            OFFICE OF
            INSPECTOR GENERAL
            U.S.DEPARTME T OFTHE INTERIOR

                                                                                            AUG 2 2 2014
Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up, Office of Financial
              Management

From:         Christopher  Stubbs~/..~ ~
              Acting Eastern Region Manager fo1 Audits, Inspections, and Evaluations

Subject:      Verification of Recommendations for the Report,
              "Bureau of Land Management and Bureau of Indian Affairs Bridge Safety
              Programs" (Report No. ER-EV-MOA-0002-2011)
              Report No. ER-VS-MOA-0011-2014

       The Office oflnspector General (OIG) has completed a verification review of the
recommendations presented in the subject report. Our objective was to determine whether the
U.S. Department of the Interior (DOl) implemented our recommendations as reported to the
Office of Financial Management (PFM), Office of Policy, Management and Budget. PFM
reported to OIG that it has closed the recommendations. We concur that the recommendations
have been resolved and implemented.

Background

       Our April2012 report, "Bureau of Land Management and Bureau of Indian Affairs
Bridge Safety Programs," made six recommendations, four to the Bureau of Land Management
(BLM) and two to the Bureau of Indian Affairs (BIA), pertaining to the need to improve
management oversight and documentation of the bridges in their inventories.

        In a March 1, 2012 memorandum to OIG, BLM concurred with the report's
recommendations and outlined steps to implement them. Likewise, in a March 14, 2012
memorandum to OIG, BIA concurred with the recommendati·ons and outlined steps to implement
them. On April30, 2012, we referred the recommendations to PFM for tracking and
implementation; at that time, we considered three of the six recommendations to be resolved and
implemented and the remaining three to be resolved but not implemented. On March 14, 2013,
PFM reported that the necessary steps had been taken to consider two of the recommendations
implemented and closed. On May 8, 2013, PFM reported that the necessary steps had been taken
to consider the last recommendation implemented and closed.

Scope and Methodology

        We limited the scope of this review to determining whether BLM and BIA implemented
the recommendations in our report. We reviewed the auditees' responses in the audit and



                         Office of A udits, Inspections, and Evaluations   I H erndon, VA
requested, and subsequently reviewed, additional documentation from both bureaus supporting
the steps taken to close the recommendations.

       We did not perform site visits or conduct fieldwork to determine whether DOI corrected
the underlying deficiencies that were initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards or the
Quality Standards for Inspection and Evaluation as put forth by the Council of the Inspectors
General on Integrity and Efficiency.

Results of Review

      We concluded that BLM and BIA implemented the recommendations as indicated by
PFM’s closure notification.

BLM Recommendations and Actions Taken:

       Recommendation 1: Develop policies and timelines to identify and classify bridges that
       are defined as “public” in accordance with 23 C.F.R. part 650.

       Action Taken: BLM issued Instruction Memorandum (IM) 2011-198 (titled
       “Compliance With the National Bridge Inspection Standards” and dated September 28,
       2011), and subsequent IMs, directing State offices to annually complete and submit
       National Bridge Inventory (NBI) data, which include bridge specifications and the
       actions taken to ensure bridge safety. BLM identified and submitted data on 444 bridges
       defined as “public” to the NBI. BLM stated that it will continue to evaluate the usage of
       these bridges on an annual basis to protect public safety.

       Recommendation 2: Submit remaining data for its qualifying bridges to the Federal
       Highway Administration (FHWA) for inclusion in the National Bridge Inventory.

       Action Taken: BLM submitted the remaining qualifying bridges for inclusion in the
       NBI. BLM updates the NBI annually by issuing IMs to State offices requesting that they
       submit NBI data to the Washington Office, which in turn forwards the data to FHWA.

       Recommendation 3: Develop and implement plans and procedures to verify the
       Bureau’s bridge inventories and ensure that all bridges are inspected in accordance with
       the National Bridge Safety Inspection Standards (Standards).

       Action Taken: BLM issued IM 2011-198, providing guidance on procedures for
       verifying the inventory and ensuring regular inspections in compliance with the NBI.
       Annual updates continue via IMs to State offices requesting that they submit NBI data to
       the Washington Office, which in turn forwards the data to FHWA.

       Recommendation 4: Develop and implement a process to collect, maintain, and report
       required data to meet the Standards.




                                               2
       Action Taken: Through the use of its annual IMs requesting NBI data updates from each
       State office, BLM has developed a process to collect, maintain, and report the data
       required to meet NBI standards.

BIA Recommendations and Actions Taken:

       Recommendation 5: Develop and implement plans and procedures to verify the
       accuracy of the Bureau’s bridge inventories.

       Action Taken: In coordination with structural engineers from the Eastern Federal Lands
       Bridge Safety Program, BIA has verified the accuracy of its bridge inventory by
       addressing the data errors from reviews for 2013 and 2014.

       Recommendation 6: Develop and implement a plan to ensure that the Bureau’s bridge
       inventory is accurate and that inspections are performed consistently and on time to meet
       NBI requirements.

       Action Taken: BIA developed a Bridge Inspection Guide (Guide) that defines the policy
       and prescribes procedures and responsibilities for the periodic inspection and evaluation
       of public bridges owned or maintained by BIA. BIA drafted the Guide in September
       2013; however, it has not been finalized. BIA stated that full implementation of the Guide
       is contingent upon development of requirements regarding the inspection of tribally
       owned bridges. To date, no guidance or regulations have been published regarding the
       inclusion of bridges owned by tribal governments. These inspections are now required by
       23 U.S.C. § 144. FHWA has been working with its Office of Federal Lands Highway and
       BIA on draft regulations for the inspection of tribally owned bridges. In addition, BIA
       has been submitting its bridge inventory updates to NBI on an annual basis.

Conclusion

       We informed DOI officials of the results of this review at an exit conference on July 31,
2014. The officials agreed with the results.


cc:    Nancy Thomas, Audit Liaison Officer, Office of Financial Management
       Sharon Blake, Audit Liaison Officer, Office of Financial Management
       LaVanna Stevenson, Audit Liaison Officer, Bureau of Land Management
       Michael Oliva, Director, Bureau of Indian Affairs




                                                3
